         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Evaluation Report


       EPA Relying on Existing Clean Air Act
       Regulations to Reduce Atmospheric
       Deposition to the Chesapeake Bay
       and its Watershed
       Report No. 2007-P-00009

       February 28, 2007
Report Contributors:	                Rick Beusse
                                     Carolyn Blair
                                     Hilda Canes
                                     Bao Chuong
                                     James Hatfield
                                     Geoffrey Pierce




Abbreviations

CAA            Clean Air Act
CAIR           Clean Air Interstate Rule
CBPO           Chesapeake Bay Program Office
CMAQ           Community Multiscale Air Quality
EPA            U.S. Environmental Protection Agency
ExtRADM        Extended Regional Acid Deposition Model
NAAQS          National Ambient Air Quality Standards
NOX            Nitrogen oxides
OIG            Office of Inspector General
PM2.5          Fine particulate matter less than or equal to 2.5 micrometers in diameter
SIP            State Implementation Plan




Cover photo:      Satellite map of the Chesapeake Bay watershed. (U.S. Geological Survey)
                       U.S. Environmental Protection Agency                                              2007-P-00009

                                                                                                      February 28, 2007

                       Office of Inspector General


                       At a Glance

                                                                            Catalyst for Improving the Environment

Why We Did This Review              EPA Relying on Existing Clean Air Act Regulations
                                    to Reduce Atmospheric Deposition to the
This review is one of several
conducted by the Office of          Chesapeake Bay and its Watershed
Inspector General (OIG) in
response to a request from a         What We Found
U.S. Senator from Maryland.
We were requested to                EPA’s Chesapeake Bay Program Office is relying on anticipated nitrogen
determine how well the U.S.         deposition reductions from Clean Air Act (CAA) regulations already issued by
Environmental Protection            EPA, combined with anticipated reductions from other non-air sources, to meet
Agency (EPA) is assisting its       water quality goals for the Bay watershed. EPA believes these CAA-related
Chesapeake Bay partners in          activities will provide sufficient nitrogen deposition reduction to enable the Bay
cleaning up the Bay. Since          to meets its overall nitrogen cap load, assuming non-air activities achieve planned
atmospheric nitrogen                reductions. EPA estimates that CAA regulations already issued will reduce
deposition contributes to           nitrogen that falls directly into the Bay, as well as nitrogen deposited to the Bay
nitrogen loads in the Bay, we       watershed, by 19.6 million pounds annually by 2010. Even greater reductions
sought to determine the impact      should occur as States undertake additional measures in the next few years to
air pollution control activities
have had in cleaning up the         meet the ozone and fine particulate matter standards. Accordingly, State and
Bay.                                EPA strategies do not include additional air reduction activities specifically
                                    designed to clean up the Bay. Many State activities being implemented to meet
Background                          national air quality standards should have the co-benefit of reducing nitrogen
                                    deposition in the Bay watershed, including the adoption of legislation and/or
The Chesapeake Bay is the           regulations by four Chesapeake Bay watershed States that go beyond EPA’s air
largest estuary in the United       regulations.
States, covering 64,000 square
miles. Six States and the           Whether all of the Bay nitrogen reduction strategies will be successful remains to
District of Columbia, various       be seen. EPA acknowledges that its goal of cleaning up the Bay by 2010 will not
Federal agencies, and others are    be met. EPA plans to meet with its Chesapeake Bay Program partners in 2007 to
involved in Bay restoration.        re-visit their strategy for cleaning up the Bay.
EPA estimates that nitrogen
depositing back to the earth        If additional reductions in air emissions are needed to clean up the Bay, one
from the atmosphere accounts        potentially significant source of deposition not currently controlled is ammonia
for approximately 32 percent of     emissions from animal feeding operations. The magnitude of these emissions to
the man-made nitrogen load to       nitrogen deposition in the Bay is uncertain. Ammonia emissions monitoring of
the Bay and is a significant
contributor to continuing water     animal feeding operations, expected to begin in the spring or early summer of this
quality problems in the Bay.        year, should provide data to help EPA better determine the amount of such
                                    emissions from farming operations.

For further information, contact     What We Recommend
our Office of Congressional and
Public Liaison at (202) 566-2391.
                                    We recommend that the EPA Region 3 Regional Administrator instruct the
To view the full report,            Chesapeake Bay Program Office to use the results of animal feeding operations
click on the following link:        emissions monitoring studies to determine what actions and strategies are
www.epa.gov/oig/reports/2007/       warranted to address nitrogen deposition to the Bay from such operations. EPA
20070228-2007-P-00009.pdf
                                    concurred with our recommendation.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF 

                                                                                   INSPECTOR GENERAL





                                        February 28, 2007

MEMORANDUM

SUBJECT:               EPA Relying on Existing Clean Air Act Regulations to Reduce
                       Atmospheric Deposition to the Chesapeake Bay and its Watershed
                       Report No. 2007-P-00009

TO:                    Donald S. Welsh
                       Regional Administrator, EPA Region 3


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $360,529.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective action plan for agreed upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Rick Beusse,
Director for Program Evaluation, Air Issues, at (919) 541-5747 or beusse.rick@epa.gov; or
James Hatfield, Assignment Manager, at (919) 541-1030 or hatfield.jim@epa.gov.




                                                     Bill A. Roderick
                                                     Acting Inspector General
                          EPA Relying on Existing Clean Air Act Regulations 

              to Reduce Atmospheric Deposition to the Chesapeake Bay and its Watershed 





                                     Table of Contents 

Purpose....................................................................................................................    1


Background .............................................................................................................       1


Noteworthy Achievements ..............................................................................................         5


Scope and Methodology.........................................................................................                 5


Results of Review....................................................................................................          5


     1. 	   To what extent are current and planned CAA requirements
            expected to help the Chesapeake Bay Program meet its goal
            of reducing nitrogen loads by 2010? .......................................................................        6

     2. 	   To what extent are voluntary measures or State-specific regulations
            that go beyond current and planned CAA requirements needed to help
            the Chesapeake Bay Program meet its nitrogen load reduction goals? .................                                9

     3. 	   What progress have States made in implementing voluntary
            measures and State-specific regulations to reduce deposition
            to the Chesapeake Bay? .........................................................................................   11

Conclusion...............................................................................................................      11


Recommendation ....................................................................................................            12


Agency Comments and OIG Evaluation................................................................                             12 


Status of Recommendation and Potential Monetary Benefits ............................                                          13




Appendices
     A      Details on Scope and Methodology .........................................................                         14

     B      Chesapeake Bay Nitrogen Loads .............................................................                        16

     C      Agency Response to Draft Report…………………………………………… 17

     D      Distribution……………………………………………………………………….. 18
Purpose
In 2000, the Chesapeake Bay watershed partners agreed to reduce nutrient loads in the Bay to
improve water quality and remove the Bay from the U.S. Environmental Protection Agency’s
(EPA’s) impaired waters list by 2010. However, Bay stakeholders have questioned whether the
needed nutrient load reductions will be met. Because of these concerns, U.S. Senator Barbara A.
Mikulski of Maryland requested the EPA Office of Inspector General (OIG) to evaluate the
Chesapeake Bay Program’s progress in meeting its nutrient reduction goals. As a result, we are
evaluating the Chesapeake Bay Program’s progress in reducing excess nutrients (nitrogen and
phosphorous) from four key sources: agriculture, urban land, point sources, and air deposition.

For this evaluation, the OIG sought to answer the following questions regarding air deposition in
the Chesapeake Bay and its watershed:

   1.	 To what extent are current and planned Clean Air Act (CAA) requirements expected to
       help the Chesapeake Bay Program meet its goal of reducing nitrogen loads by 2010?

   2.	 To what extent are voluntary measures or State-specific regulations that go beyond
       current and planned CAA requirements needed to help the Chesapeake Bay Program
       meet its nitrogen load reduction goals?

   3.	 What progress have States made in implementing voluntary measures and State-specific
       regulations to reduce nitrogen deposition to the Chesapeake Bay?

Background
The Chesapeake Bay is North America’s largest and most biologically diverse estuary, home to
more than 16 million people and 3,600 species of plants, fish, and animals. The Bay’s
watershed, the geographic area that drains water to the Bay, covers 64,000 square miles. The
watershed includes parts of six States – Delaware, Maryland, New York, Pennsylvania, Virginia,
and West Virginia – as well as all of the District of Columbia.

For more than 300 years, the Bay and its tributaries have sustained the region’s economy.
However, over time, excess nutrients (such as nitrogen) and sediment have accumulated in the
Bay, resulting in a degradation of water quality and a loss of aquatic life. The diagram in
Figure 1 shows how excess nutrients from all sources end up in the Bay, including air pollutants
that can deposit back to the earth through precipitation or by settling under dry conditions.




                                                1

Figure 1: Conceptual Diagram of Nutrient and Sediment Sources and
Pathways in the Chesapeake Bay Watershed




Source: U.S. Geological Survey

Formal efforts to restore the health of the Bay have been ongoing since 1983. Despite these
efforts, EPA and its partners acknowledge that the Bay will not meet the targeted nitrogen load
reductions by the current goal of 2010. The Chesapeake Bay Program partners plan to meet in
2007 to review progress and re-visit their current strategy for cleaning up the Bay.

Efforts to Restore the Chesapeake Bay

The Chesapeake Bay Program is a regional partnership of State and Federal agencies, academic
institutions, and non-governmental organizations formed in 1983 to lead and direct restoration of
the Bay. Bay Program members include EPA, Maryland, Pennsylvania, Virginia, the District of
Columbia, and the Chesapeake Bay Commission (a tri-State legislative advisory body). As the
representative of the Federal Government, EPA and its Chesapeake Bay Program Office (CBPO)
coordinate activities and implementation of strategies to meet the restoration goals of the Bay.
The CBPO, headquartered in Annapolis, Maryland, is part of EPA’s Region 3. The States of
Delaware, New York, and West Virginia are also actively involved in the Bay program, but are
not signatories to the 2000 agreement for cleaning up the Bay.

Since 1991, the CBPO budget has remained stable at approximately $20 million annually. Other
Federal agencies, such as the National Oceanic and Atmospheric Administration and the U.S.
Geological Survey, provide expertise and resources to the CBPO to help in the Bay restoration.
The Bay Program partners have signed three Chesapeake Bay agreements, the most recent in
2000. The first Chesapeake Bay agreement, established in 1983, did not address air deposition’s

                                                2

contribution to the Bay’s water quality problems. The 1987 agreement included an objective to
“quantify the impacts and identify the sources of atmospheric inputs on the Bay system.” An
amendment to the 1987 agreement stated that nutrient reduction strategies would include an air
deposition component that builds upon the CAA.

Under the latest agreement, known as Chesapeake 2000, the Bay Program partners recommitted
to their overall mission of Bay restoration and established new, more ambitious goals. The 2000
Agreement established the goal of improving water quality in the Bay and its tributaries so that
these waters may be removed from EPA’s impaired waters list by 2010. The partners agreed that
annual nitrogen loads entering the Bay from tributaries should not exceed 175 million pounds by
2010, an estimated 110-million-pound annual reduction from 2000 levels. The overall
175-million-pound nitrogen load was allocated among all the tributaries that feed into the Bay.
Each partner State developed a State tributary strategy to meet its nitrogen cap load allocation.

The 110-million-pound annual reduction includes 8 million pounds of annual nitrogen deposition
reductions anticipated from implementing EPA’s March 2005 Clean Air Interstate Rule (CAIR).
The remaining 102-million-pound annual reduction is expected to come from existing CAA
regulations and non-air sources. The air and non-air reductions are combined and reflected in the
overall nitrogen load goals for each tributary. According to EPA modeling estimates, other air
regulations are estimated to achieve about 7 million pounds of nitrogen reductions annually. The
15 million pounds of nitrogen reductions expected annually from CAIR and other air regulations
are related to deposition that falls in the Bay watershed and eventually ends up in the Bay. EPA
modeling also projects that CAIR and other air regulations will reduce nitrogen deposition that
falls directly into the Bay by 4.6 million pounds annually. Thus, CAIR and other air regulations
are expected to reduce nitrogen that falls to the Bay watershed and directly into the Bay by about
19.6 million pounds annually.

Contribution of Air Emissions to Nitrogen in the Chesapeake Bay

Excess nitrogen in the Bay comes from many sources. These sources include chemical fertilizer
(nonagricultural and agricultural), municipal and industrial wastewater treatment plants (point
sources), septic systems, livestock (manure), and the air, as shown in Figure 2.

EPA has identified air emissions of nitrogen oxides (NOX) as a significant contributor to the
excess nitrogen loads in the Bay. The NOX emissions that contribute nitrogen deposition to the
Bay and its watershed come from States both inside and outside the watershed. This
geographical area is referred to as the airshed.1 NOX air emissions can wind up in the Bay by
depositing directly into the Bay (i.e., tidal waters) or by depositing in the Bay watershed. The
time it takes from the emission of NOX in the airshed to its deposition into the watershed ranges
from within minutes to about 1.5 days, according to model estimates. Deposition in the Bay
watershed can eventually wash into the Bay from streams, rivers, and runoff, or through
groundwater flow.



1
 EPA defines the Bay airshed as the area where nitrogen emission sources are estimated to cumulatively contribute
75 percent of the total nitrogen deposition to the Bay and its surrounding watershed.

                                                        3

Figure 2: Sources of Nitrogen Loads to the Chesapeake Bay
                             Percentage Contribution in 2000


                                Chemical                     Atmospheric
                                Fertilizer                   Deposition to
                                  25%                        Tidal Waters
                                                                  7%
                       Septic
                        4%
                                                                   Atmospheric
                                                                   Deposition to
                  Point Source
                                                                    Watershed
                      21%
                                               Manure                 25%
                                                18%


Source: OIG staff from data provided by CBPO

At the time of the Chesapeake 2000 agreement, air deposition was estimated to contribute
approximately 32 percent2 of the nitrogen entering the Bay, as shown in Figure 2 above.
Figure 3 shows the relative contribution of the major types of NOX air emission sources to
atmospheric nitrogen deposition in the Bay.

Figure 3: Sources of Atmospheric Nitrogen Deposition to Chesapeake Bay
            Types and Relative % Contribution of NOx Emission Sources from States* in the
                                       Chesapeake Bay Airshed
                   (2001, projected from EPA’s 1999 National Emissions Inventory)




                         Mobile non-road                   Area
                              16%                          6%
                                                                                   Utilities
                                                                                    27%




                 Mobile on-road
                     39%                                                 Industries
                                                                            12%
       * 14 States: MD, VA, PA, NY, WV, NJ, OH, KY, NC, SC, TN, IN, MI, and DE




Source: EPA and National Oceanic and Atmospheric Administration

As shown in the figure above, the primary sources of NOX air emissions that deposit in the Bay
are utilities and mobile on-road sources, such as cars and trucks. Utilities and mobile on-road
sources together account for nearly two-thirds of all air pollution sources in the airshed. Mobile
non-road (e.g., lawnmowers, locomotives, marine vessels), industry, and area sources (e.g., dry
cleaners, gas stations) account for 16, 12, and 6 percent, respectively.




2
    Nitrogen deposition to the watershed (25 percent) plus nitrogen deposition directly to tidal waters (7 percent).

                                                                    4

Noteworthy Achievements

CAA regulations, such as CAIR, are expected to reduce airborne nitrogen loads to the Bay by
about 19.6 million pounds annually by 2010. State-specific activities to meet the National
Ambient Air Quality Standards (NAAQS)3 for ozone and PM2.5 should further reduce nitrogen
loads to the Bay. In fact, four Chesapeake Bay watershed States have already adopted legislation
and/or regulations that go beyond EPA’s air regulations.

Scope and Methodology
We performed our evaluation in accordance with Government Auditing Standards issued by the
Comptroller General of the United States. We conducted field work from April 2006 through
August 2006. To answer the three evaluation objectives, we reviewed numerous Chesapeake
Bay-related documents and interviewed EPA and State officials and staff. Key documents
reviewed included State-tributary strategies, reports explaining how nitrogen cap loads were set,
and the results of nitrogen deposition modeling. We interviewed EPA officials and staff from
the CBPO in Annapolis, Maryland; the Office of Research and Development in Research
Triangle Park, North Carolina; and the Office of Water in Washington, DC. In addition, we
obtained input from EPA’s Office of Air Quality Planning and Standards on our detailed findings
outline. We also interviewed State officials and staff involved in Chesapeake Bay restoration
from the Maryland Department of Natural Resources, the Maryland Department of the
Environment, the Pennsylvania Department of Environmental Protection, and the Virginia
Department of Environmental Quality. See Appendix A for additional details on our scope and
methodology, including prior coverage, internal controls, and data limitations.

Results of Review
Federal CAA regulations designed to decrease NOX emissions should reduce the amount of
nitrogen that reaches the Bay in the future. These regulations are being implemented to achieve
national air quality standards designed primarily to protect human health, but have the co-benefit
of reducing airborne emissions that contribute to Bay pollution problems. Consequently, current
strategies for cleaning up the Bay are based on the expectation that existing and planned CAA-
related air emissions reductions will enable the Bay Program to meet its overall nitrogen load
reduction goals, provided that the non-air nitrogen reduction goals are also met. We did not
assess the feasibility of implementing additional air regulations beyond the current CAA-related
requirements.

The following sections discuss the results of our review for the three questions we raised
regarding air deposition to the Chesapeake Bay.



3
 The CAA requires EPA to set NAAQS for air pollutants considered harmful to public health and the environment.
EPA sets health-based or primary NAAQS limits to protect public health with an adequate margin of safety. EPA
has set primary standards for six common air pollutants, including ozone and particulate matter.


                                                      5

1. 	 To what extent are current and planned CAA requirements expected to help the
     Chesapeake Bay Program meet its goal of reducing nitrogen loads by 2010?

Based on EPA modeling projections,4 existing and planned CAA-related actions are expected to
obtain sufficient nitrogen deposition reductions to enable the Bay to meet its overall nitrogen
reduction goals, if planned non-air reduction goals are met. However, CBPO officials have
acknowledged the overall goal will not be met by 2010 at the current rate of implementation.
CAA regulations are expected to reduce nitrogen loads to the Bay by 15 million pounds annually
by 2010, as follows:

    •	   CAIR is expected to reduce nitrogen loads to the Bay by 8 million pounds of nitrogen a
         year beginning in 2010.
    •	   EPA estimates that existing clean air regulations in addition to CAIR will provide an
         additional 7 million pounds of reductions annually.

EPA expects future State actions to address nonattainment areas for ozone and fine particles
(fine particulate matter less than or equal to 2.5 micrometers in diameter, or PM2.5) to further
reduce nitrogen deposition to the Bay. EPA plans to model the impact of these activities on the
Bay after State implementation plans for addressing these nonattainment areas are submitted to
EPA in 2007 and 2008.

The 15-million-pound annual reductions expected from current regulations and CAIR are based
on the assumption that watershed conditions, such as land use patterns, are the same for 2000 and
2010. EPA used this land use assumption to isolate the impact of the CAA regulations on the
Bay, and it is not meant to suggest that the land use patterns will in fact remain constant. This is
an important assumption because land use patterns greatly impact the percentage of atmospheric
deposition that is absorbed and conveyed by the land, thus impacting what is delivered to the
Bay. For example, forests in the Bay watershed are able to absorb most of the atmospheric
nitrogen and prevent it from entering the Bay. Conversely, land surfaces that have been paved
will not absorb significant amounts of nitrogen. The Conservation Fund and the U.S.
Department of Agriculture’s Forest Service recently reported that, since 1970, the forests in the
Bay watershed have been declining at a rate of at least 100 acres each day.

The 15-million-pound reduction discussed above is related to deposition that falls in the Bay
watershed (excluding Bay tidal waters) and eventually winds up in the Bay. In addition to this
15-million-pound reduction, EPA modeling projects that CAIR and other existing air regulations
will reduce atmospheric deposition that falls directly into the Bay by 4.6 million pounds
annually. This 4.6 million pounds represents a 22-percent reduction from 2000 to 2010, and is
unaffected by land use. Collectively, EPA estimates that CAA regulations already issued will
reduce nitrogen that falls directly into the Bay, as well as nitrogen deposited to the Bay

4
  These projections are based on air deposition estimates obtained from the Extended Regional Acid Deposition
Model (ExtRADM) and preliminary estimates from the Community Multiscale Air Quality (CMAQ) model. EPA’s
Office of Research and Development is responsible for carrying out the modeling. CBPO has started using the
CMAQ modeling results to provide its air deposition estimates, but estimates using the CMAQ model had not been
finalized at the time we completed our review.


                                                      6

watershed, by 19.6 million pounds annually by 2010. Appendix B presents the relative
contribution of atmospheric deposition to the Bay’s overall nitrogen loads for 2000 and 2010,
assuming land use patterns and land use nitrogen loads change to meet the goals and activities
outlined in the State-tributary strategies.

        CAIR Expected to Reduce Nitrogen Deposition to the Bay

        The Bay watershed model estimated that roughly 305 million pounds of nitrogen entered
        the Bay in 2000.5 Of that sum, an estimated 97 million pounds were from direct and
        indirect atmospheric deposition (see Figure 3 for the relative contribution of the major
        types of NOX air emission sources to nitrogen deposition in the Bay).6

        The CBPO estimates that airshed States contribute 76 percent of the airborne nitrogen
        deposition to the watershed; the Bay watershed States alone contribute 49 percent of the
        watershed’s airborne nitrogen deposition. Figure 4 shows the airshed and the watershed
        for the Bay.
        Figure 4: NOX Emissions Airshed for the 

        Chesapeake Bay and the Bay’s Watershed 





        ___ Airshed

              Watershed
        Source: EPA and National Oceanic and Atmospheric Administration




5
 Of the 305 million pounds of nitrogen that entered the Bay, EPA estimated that 20 million pounds directly
deposited in the Bay and 285 million pounds flowed into the Bay and its rivers from the watershed.
6
 Deposition to the watershed of 76.5 million pounds plus deposition directly to tidal waters of 20.5 million pounds
equals 97 million pounds.

                                                           7

        In 2005, EPA promulgated CAIR, a cap and trade program7 designed to reduce emissions
        of NOx and sulfur dioxide in the eastern United States. The States subject to CAIR
        include all of the States in the Chesapeake Bay airshed plus 14 surrounding States. Air
        emissions in these States contribute to unhealthy levels of ground-level ozone and/or fine
        particles. CAIR should achieve significant year-round NOX reductions across the
        28 States and District of Columbia covered by the rule. The first cap on NOX emissions
        required by CAIR occurs in 2009. In that year, EPA estimates that CAIR will reduce
        NOX emissions from utilities by 3.4 billion pounds, or 53 percent, from 2003 levels.
        Based on EPA modeling projections, the 3.4-billion-pound emission reduction is
        expected to result in an 8-million-pound reduction in nitrogen loads to the Bay by 2010.

        When the final cap on NOX emissions takes effect in 2015, CAIR is expected to reduce
        utility plant NOX emissions by an additional 600 million pounds from the 2009 cap, a
        61-percent reduction from 2003 levels. Thus, CAIR is expected to have a positive impact
        on the Bay. Figure 5 shows the States covered by CAIR.

        Figure 5: States Covered by CAIR




        Source: EPA




7
  Cap and trade is a market-based program that sets a cap, or maximum limit, on emissions. Sources covered by the
program receive authorizations to emit in the form of emissions allowances, with the total amount of allowances
limited by the cap. Each source can design its own compliance strategy to meet the overall reduction requirement,
including sale or purchase of allowances, installation of pollution controls, or other options.


                                                        8

        State Control Measures to Attain the NAAQS for Ozone and Fine Particles
        Expected to Decrease Nitrogen Deposition to the Bay

        State-specific activities to meet the NAAQS for ozone and PM2.5 should provide
        additional NOx emission reductions and have the co-benefit of reducing nitrogen loads to
        the Bay. The air quality in numerous counties within the Chesapeake Bay airshed
        exceeds the NAAQS for ozone and PM2.5. EPA has designated these areas as
        nonattainment.8 Accordingly, all States in the Chesapeake Bay watershed (including the
        District of Columbia) and many States in the airshed are required to implement steps to
        reduce ozone and PM2.5 levels in these nonattainment areas.

        The steps States plan to take to meet the NAAQS are outlined in State Implementation
        Plans (SIPs) and submitted to EPA for approval. States are required to submit their
        ozone SIPs to EPA by June 2007, and their PM2.5 SIPs by April 2008. Depending on the
        severity of the ozone nonattainment, an area may have from 3 years (for marginal
        nonattainment) to 20 years (for severe nonattainment) from the effective date of
        nonattainment designation to achieve the standard. Ozone nonattainment areas in the
        Bay watershed States range from marginal to moderate in severity. Compliance with the
        8-hour ozone standard for these areas ranges from June 15, 2007, to June 15, 2010. The
        attainment date for the PM2.5 standard is April 2010, but this date can be extended up to
        April 2015. Once these SIPs are received, EPA plans to model the impact that the
        activities outlined in these SIPs will have on nitrogen deposition in the Bay.

2. 	 To what extent are voluntary measures or State-specific regulations that go
     beyond current and planned CAA requirements needed to help the
     Chesapeake Bay Program meet its nitrogen load reduction goals?

Currently, the CBPO does not consider voluntary or State-specific regulations that go beyond
current and planned CAA requirements necessary to meet the overall nitrogen load for the Bay.
However, the Chesapeake Bay Program partners may pursue voluntary and regulatory actions
beyond CAA requirements that yield additional reductions in nitrogen loads delivered to
Chesapeake Bay tidal waters. The CBPO stated that the Bay Program partners have agreed to
quantify and account for these State-specific regulatory actions as anticipated nitrogen reductions
from air emission reductions. The CBPO also said the potential Chesapeake Bay water quality
benefits from these anticipated reductions will be quantified and factored into the States’
tributary strategies. As noted earlier, the Bay Program will not meet its nitrogen reduction goals
by 2010, but plans to re-visit its strategy for cleaning up the Bay in 2007.

Even if future analyses were to determine that the Bay could not be cleaned up without
additional NOX emission reductions, the CBPO does not have the authority to establish or
promulgate air-related regulations. Absent the promulgation of additional air regulations by
EPA’s Office of Air and Radiation, the CBPO would have to rely upon regulatory or voluntary
measures from the State partners to achieve these reductions. However, promulgating State air
regulations that are stricter than Federal air regulations can be difficult. For example,

8
 In the 14 States and the District of Columbia that comprise the Chesapeake Bay airshed, 300 counties are
designated nonattainment for ozone and 147 counties are designated nonattainment for PM2.5.

                                                        9

Pennsylvania officials told us they are prohibited by State law from developing regulations for
the agricultural industry that are not specified by the CAA. Even when State law allows stricter
regulations, the amount of detailed justification required and other procedural barriers can make
adopting more stringent regulations difficult. Nevertheless, at least four Chesapeake Bay
watershed States have already adopted legislation and/or regulations that go beyond EPA
regulations in reducing NOX emissions, as follows:

    •	 New York (Acid Deposition Reduction Program - 2004). Requires certain utilities to
       reduce emissions of sulfur dioxide and NOX to 50 percent below Phase 2 levels of the
       Federal Acid Rain Program.
    •	 New York (Low Emission Vehicle Program – 2005). Adopts California’s second
       generation low emission vehicle program for light-duty vehicles (LEV II), which is more
       stringent than EPA’s Tier 2 vehicle emission standards.
    •	 Maryland (Healthy Air Act - 2006). Accelerates the timeline for utilities to meet the
       NOx reductions outlined in CAIR, and sets a lower NOx cap than CAIR.
    •	 Virginia (Clean Smokestack Act - 2006). The State can prohibit utilities in
       nonattainment areas from purchasing allowances under the EPA-administered cap and
       trade system in order to meet their NOX and sulfur dioxide budgets.
    •	 Pennsylvania (Clean Vehicles Program – 2006). Adopts California’s second
       generation low emission vehicle program for light-duty vehicles (LEV II), which is more
       stringent than EPA’s Tier 2 vehicle emission standards.

All of these regulations were adopted to ensure that attainment dates for NAAQS will be met.
However, they have the co-benefit of helping to reduce airborne nitrogen loads in the Bay. As
shown earlier in Figure 3, on-road mobile sources and utilities are the two primary sources of
NOx emissions in the Bay airshed. All the programs mentioned above are directed at these two
sources of NOx emissions.

If EPA determines that additional reductions in nitrogen loads to the Bay are needed to clean up
the Bay, ammonia emissions from animal feeding operations represent a potentially significant
contributor of nitrogen loads to the Bay that is not currently controlled. Continuing increases in
emissions of ammonia,9 a nitrogen compound, and subsequent deposition of ammonia and
ammonia-derived compounds are expected to offset some of the benefits from NOX emissions
regulations. This is compounded by the fact that ammonia emissions from animal feeding
operations are not currently controlled by CAA-related regulations. Ammonia contributes to the
formation of ammonium-based fine particulate matter, a CAA criteria pollutant that can deposit
onto the watershed and contribute to the accumulation of excess nitrogen loads in the Bay.

Quantifying the extent of ammonia emissions is needed to determine the impact on nitrogen
deposition in the Bay watershed and better address the problem. The largest source of ammonia
emissions in the United States, including the Chesapeake Bay region, is animal feeding
operations. However, there is significant uncertainty in the emissions inventory for this source.

9
 Ammonia is a chemical compound of nitrogen and hydrogen. The majority of these emissions come from the
volatilization of manure/animal waste at animal feeding operations. Once in the atmosphere, ammonia can react
with other chemicals to produce ammonium aerosol.

                                                       10

The uncertainty lies in the lack of quality data to establish emission estimating methods that
account for the effect of type and class of animals, varying climate conditions, and differing
farming practices. EPA plans to address this research need through the 2005 Animal Feeding
Operations Consent Agreement and Final Order that will monitor emissions of air pollutants
from these operations, including ammonia, for about 24 months. The monitoring program is
expected to begin in the spring or early summer of this year. Data from the monitoring program
will allow EPA to develop a process-based emission estimating model that considers the entire
production process of livestock products. EPA can then input a more accurate emission
inventory into air quality models that determine the fate of the ammonia emissions that include
deposition onto sensitive ecosystems, such as the Bay.

3. 	 What progress have States made in implementing voluntary measures and
     State-specific regulations to reduce nitrogen deposition to the Chesapeake
     Bay?

The current strategy for cleaning up the Bay relies on CAA-related reductions and does not call
for any additional State-specific regulatory or voluntary actions. We spoke with State
environmental managers and staff from Maryland, Virginia, and Pennsylvania. These managers
and staff confirmed that their States have not implemented any air pollution control measures
specifically designed to help clean up the Bay. However, they identified a number of ongoing
activities designed to help States meet the ozone and PM2.5 NAAQS that will have the co-benefit
of reducing nitrogen deposition to the Bay. As discussed in the prior section that addressed our
second question, some of these activities include programs that go beyond the requirements of
EPA’s air regulations in reducing NOx emissions. While not specifically designed to address the
Bay’s problem, these regulations will have the co-benefit of reducing nitrogen loads to the Bay.

Conclusion
EPA is relying on existing CAA regulations to reduce atmospheric nitrogen deposition to the
Bay. Current and proposed Federal air regulations, as well as pollution control activities at the
State level, are expected to have the co-benefit of reducing nitrogen deposition to the Bay.
EPA modeling projects that these air regulations will decrease NOx emissions to the extent
needed to meet the atmospheric deposition goals in the Chesapeake 2000 agreement. While
EPA expects to achieve the planned reductions from the air sector, meeting the non-air
nitrogen reduction goals is proving difficult. Bay partners agree that there is much work to be
done to reduce nitrogen loads to the Bay and, at the current rate of progress, the Bay and its
tributaries will not be removed from EPA’s impaired waters list by 2010. Consequently,
additional opportunities for reducing nitrogen loads to the Bay may need to be identified.
Airborne ammonia emissions from animal feeding operations may present one such
opportunity, but more information is needed to determine the impact of these emissions on the
Bay.




                                                11

Recommendation
We recommend that the EPA Region 3 Regional Administrator:

   1. 	 Instruct CBPO to use the results of the animal feeding operations emissions monitoring
        studies to determine what actions and strategies are warranted to address animal feeding
        operations’ nitrogen deposition to the Chesapeake Bay.

Agency Comments and OIG Evaluation

EPA concurred with our recommendation. The OIG expects to receive the Agency’s response to
this final report within 90 days with specifics for implementing this recommendation, including
milestones.




                                               12

                                Status of Recommendation and
                                  Potential Monetary Benefits

                                                                                                                          POTENTIAL
                                                                                                                          MONETARY
                                                                                                                                          2
                                               RECOMMENDATION                                                          BENEFITS (in $000s)

                                                                                                           Planned
    Rec.   Page                                                                                           Completion   Claimed   Agreed To
                                                                             1
    No.     No.                      Subject                        Status         Action Official           Date      Amount     Amount

     1      12    Instruct CBPO to use the results of the animal      O             EPA Region 3
                  feeding operations emissions monitoring studies                Regional Administrator
                  to determine what actions and strategies are
                  warranted to address animal feeding operations’
                  nitrogen deposition to the Chesapeake Bay.




1
     O = recommendation is open with agreed-to corrective actions pending; 

     C = recommendation is closed with all agreed-to actions completed;

     U = recommendation is undecided with resolution efforts in progress 

2
     Assessing potential monetary benefits was not an objective of this evaluation.




                                                                             13

                                                                                     Appendix A

                 Details on Scope and Methodology

Prior Coverage

The EPA OIG recently issued two reports on the Chesapeake Bay:

   •	 EPA Grants Supported Restoring the Chesapeake Bay (Report No. 2006-P-00032),
      September 6, 2006 – We reported that EPA effectively awarded grant funds toward
      projects that should maximize environmental benefits in the Chesapeake Bay.

   •	 Saving the Chesapeake Bay Watershed Requires Better Coordination of Environmental
      and Agricultural Resources (EPA OIG Report No. 2007-P-00004), November 20, 2006 –
      This report, jointly conducted by the EPA OIG and the U.S. Department of Agriculture
      Office of Inspector General, addresses the Chesapeake Bay Program’s progress in
      reducing excess nutrients and sediment from the agricultural sector. The report noted that
      despite significant efforts directed at the agricultural community to improve water quality
      in the Bay watershed, such as agricultural best management practices, excess nutrients
      and sediment continue to impair the Bay’s water quality.

The Government Accountability Office issued Chesapeake Bay Program: Improved Strategies
Are Needed to Better Assess, Report, and Manage Restoration Progress (Report No. GAO-06
96) on October 28, 2005. This report noted that the Chesapeake Bay Program (1) had not yet
developed and implemented an integrated assessment approach for measuring progress; (2) did
not effectively communicate the status of the health of the Bay to the public; and (3) did not have
a comprehensive, coordinated implementation strategy to meet the goals of the Chesapeake 2000
Agreement.

Internal Controls

Government Auditing Standards require that auditors obtain an understanding of internal controls
significant to the audit objectives and consider whether specific internal control procedures have
been properly designed and placed in operation. This evaluation was a limited-scope assessment
of the role of atmospheric deposition in the Chesapeake Bay Program’s efforts to reduce overall
nitrogen loads in the Bay. The extent of atmospheric deposition’s contribution to Bay nitrogen
loads and the impact of NOX emission reductions activities on atmospheric deposition is
estimated using complex environmental models. The Chesapeake Bay Program, until recently,
relied upon the ExtRADM model to track nitrogen emissions from all sources in the airshed.
The ExtRADM has been peer-reviewed, a key internal control for ensuring the acceptability of
scientific data and processes. During the course of our review, the Program switched its Airshed
Model from the ExtRADM to the CMAQ model. However, EPA had not finalized any modeling
runs using the new model at the time we completed our field work. The CMAQ model has also
been peer-reviewed.


                                                14

Limitations

The atmospheric deposition data presented in this report is based on estimates produced by EPA
models. These models in turn rely upon numerous data collected from and generated by other
sources and models. For example, a key input to the atmospheric deposition models (ExtRADM
and CMAQ) are NOX emission inventories and projected NOX emissions for future years.
Sources of the NOX emission inventory include Continuous Emission Monitoring of point
sources, such as utilities, and results from emission estimating methods and models for area and
mobile sources. EPA uses NOX emission data as inputs into models that take into account
growth and other factors to estimate future NOx emissions inventories. In the case of utilities,
estimates of future years’ NOX emissions are generated by the Integrated Planning Model, an
economic model of the utility sector. We did not assess the accuracy of the inputs to the various
models used in generating the atmospheric deposition estimates or assess the appropriateness of
EPA’s use of these models.

Air deposition data is one of many data sources for the Chesapeake Bay Program Watershed
model. The Watershed model estimates the delivery of nutrients from all areas of the watershed
to tidal waters under different management scenarios. We did not assess the accuracy of
modeling data generated by the Chesapeake Bay Program Watershed model.




                                               15

                                                                                                          Appendix B

                         Chesapeake Bay Nitrogen Loads
The following table shows the relative contribution of atmospheric deposition to the Bay’s
overall nitrogen loads in 2000 and 2010 if land use patterns and land use nitrogen loads change
as outlined in the State-tributary strategies. As noted earlier in the report, land use patterns
greatly impact the percentage of atmospheric deposition that is delivered to the Bay.
Accordingly, the difference in atmospheric deposition to the watershed between 2000 and 2010
represents the combined impact of reductions in atmospheric deposition and full implementation
of the activities (best management practices, installation of riparian buffers, etc.) outlined in the
most recent State-tributary strategies. However, as explained earlier in this report, the nitrogen
load cap of 175 million tons will not be met by 2010. Thus, this table does not represent an
estimate of Bay nitrogen loads for 2010, and only illustrates the potential impact of CAA
regulations in combination with the State-tributary strategies. The difference in atmospheric
deposition directly to tidal waters does represent the anticipated impact of CAA regulations,
including CAIR, since this deposition is unaffected by land use.
Table B.1: Bay Nitrogen Loads for 2000 and 2010

                                                                        2000 Nitrogen        2010 Projected
                                                                             Loads           Nitrogen Loads
 Sources of Nitrogen                                                   (million pounds)     (million pounds)
         a
 Manure                                                                        54.6                 25.2
                      a
 Chemical Fertilizers                                                          78.9                 43.6
                                                   a
 Point Sources (i.e., wastewater treatment plants)                             62.8                 40.6
                 a
 Septic systems                                                                11.9                  9.4
                                       b
 Atmospheric Deposition to Watershed                                           76.5                 62.6
                                                                                    c                    cd
 Total Nitrogen Load from Watershed Before CAIR                               284.8                181.3
                                                                                                         e
 Atmospheric Deposition Directly to Tidal Waters                               20.5                 15.9
 Total Nitrogen Load                                                          305.3                197.2
 Source: Table based on modeling data provided by the CBPO.

 a
      2010 projected loads are the goals outlined in the respective State-tributary reductions and not an
      estimate of what is expected to occur in 2010. EPA has acknowledged that some of these
      reductions will not occur by 2010.
 b
      Includes deposition from all emission sources, i.e., on-road and non-road mobile, utility, industry, and 

      area sources (including agriculture). 

 c
      Totals do not add to exact number due to rounding. 

 d
      Includes reductions attributable to CAA implementation, i.e., “Tier II” tail pipe standards, Title IV (Acid
      Rain Program), and the NOX SIP call. This total does not include expected reductions from
      implementation of CAIR since the impact of CAIR has not been modeled against expected watershed
      conditions for 2010. CAIR is estimated to provide an 8-million-pound reduction if watershed
      conditions did not change from 2000 to 2010.
 e
     Includes reductions attributable to actions referenced in table note “d” plus reductions from CAIR.
      These reductions would be fully attributable to air regulations since land use patterns would not
      impact direct deposition to tidal waters.




                                                             16

                                                                                       Appendix C

                   Agency Response to Draft Report

                                         February 5, 2007


MEMORANDUM

SUBJECT:       EPA’s Response to OIG Draft Assignment No. 2006-01045 dated January 9, 2007
               entitled, “Evaluation Report: EPA Relying on Existing Clean Air Act
               Regulations to Reduce Atmospheric Deposition to the Chesapeake Bay and its
               Watershed”

FROM:          Donald S. Welsh
               Regional Administrator, Region III

TO:            J. Rick Beusse, Director for Program Evaluation, Air Issues
               Office of the Inspector General

We concur with the recommendation as described in the report.

If you or your staff has any questions related to our response to the draft report, please contact
Rebecca Hanmer at 410-267-5709 or Richard Batiuk at 410-267-5731.

cc. 	   Benjamin Grumbles, Assistant Administrator, Office of Water
        William Wehrum, Acting Assistant Administrator, Office of Air and Radiation
        Judith Katz, Director, Region 3 Air Protection Division
        Jon Capacasa, Director, Region 3 Water Protection Division
        Rebecca Hanmer, Director, Region 3 Chesapeake Bay Program Office
        Richard Batiuk, Associate Director for Science, Chesapeake Bay Program Office
        Lorraine Fleury, Audit Coordinator, Region 3
        Michael Mason, Office of Water




                                                 17

                                                                            Appendix D

                                    Distribution
Office of the Administrator
Acting Assistant Administrator for Air and Radiation
Assistant Administrator for Water
Office of General Counsel
Agency Followup Official (the CFO)
Agency Followup Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Regional Administrator, Region 3
Director, Air Protection Division, Region 3
Director, Water Protection Division, Region 3
Director, Chesapeake Bay Program Office
Associate Director for Science, Chesapeake Bay Program Office
Audit Followup Coordinator, Region 3
Acting Inspector General




                                             18

